No. 18A-_____
IN THE
SUPREME COURT OF THE UNITED STATES

JAMES JOSEPH GARNER,

Applicant,
v.
COLORADO,

Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Colorado

APPLICATION FOR EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR WRIT OF CERTIORARI

Megan A. Ring
COLORADO STATE PUBLIC
DEFENDER
Inga K. Nelson
DEPUTY PUBLIC DEFENDER
1300 Broadway, Suite 300
Denver, CO 80203

Jeffrey L. Fisher

Counsel of Record

Brian H. Fletcher
Pamela S. Karlan
STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@stanford.edu

APPLICATION FOR EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR WRIT OF CERTIORARI
TO: Justice Sotomayor, Circuit Justice for the United States Court of
Appeals for the Tenth Circuit:
Applicant James Joseph Garner respectfully requests an extension of
thirty (30) days in which to file his petition for writ of certiorari, challenging
the Colorado Supreme Court’s decision in Garner v. People, 436 P.3d 1107
(2019), a copy of which is attached herewith. In support of this application,
Applicant provides the following information:
1. The Colorado Supreme Court issued its decision on March 18, 2019.
App. 1. Accordingly, the petition for certiorari is currently due on June 17,
2019. Granting this extension would make it due on July 17, 2019.
2. This case is a serious candidate for certiorari review. It raises a
federal constitutional question over which state courts of last resort and the
federal courts of appeals are divided: whether identifications of criminal
defendants in ordinary courtroom settings as the perpetrator of a crime are
categorically exempt from screening for reliability under the Due Process
Clause so long as the police did not arrange an unduly suggestive
identification before trial. A bare majority of the Colorado Supreme Court
held in this case that the Due Process Clause is categorically inapplicable
under these circumstances. App. 29. The majority acknowledged, however,
that, some state and federal courts have held to the contrary. See id. at 17-20,
1

27-28 (citing, e.g., State v. Dickson, 141 A.3d 810, 822-28 (Conn. 2016);

United States v. Greene, 704 F.3d 298, 305-06 (4th Cir. 2013)). And the
dissenting Justices would have followed the lead of those other courts. See
App. 39-43 (Hart, J., dissenting).
The importance of this issue is manifest. In-court identifications are a
regular occurrence in criminal trials. They also are “extremely powerful
evidence.” App. 3. Indeed, there is “almost nothing more convincing than a
live human being who takes the stand” and identifies the perpetrator.

Watkins v. Sowders, 449 U.S. 341, 352 (1982) (Brennan, J., dissenting). At
the same time, it is difficult to imagine “a more suggestive identification
procedure than placing a witness on the stand in open court, confronting the
witness with the person the state has accused of committing the crime, and
then asking the witness if he can identify the person who committed the
crime.” Dickson, 141 A.2d at 822; see also United States v. Rogers, 126 F.3d
655, 658 (5th Cir. 1997) (“[I]t is obviously suggestive to ask a witness to
identify a perpetrator in the courtroom when it is clear who is the
defendant.”). This suggestive setting can lead to misidentifications—and to
wrongful convictions.
This case, moreover, is an excellent vehicle to decide whether due
process ever has anything to say about the risk of such wrongful convictions.
The potential for misidentification was extremely high here. Three
eyewitnesses identified applicant as the perpetrator at the stand at trial. Yet
2

all three were shown photo arrays including applicant shortly after the crime,
and none identified applicant as the perpetrator. Furthermore, all three gave
physical descriptions of the perpetrator to the police that varied wildly from
applicant—for example, describing the perpetrator as a bald man, whereas
applicant had hair. Finally, none of the eyewitnesses knew the perpetrator,
and their sole exposure to him (at least before trial) was a brief chaotic scrum
late at night in a bar. For all of these reasons and others, the dissenting
Justice below observed—without dispute from the majority—that if due
process requires a reliability screen in this setting, it is likely the
identifications would have been impermissible. See App. 43-46 (Hart, J.,
dissenting).
3. This application is not filed for purposes of delay. Given the
importance of this case, Applicant has recently retained Jeffrey L. Fisher of
the Stanford Supreme Court Litigation Clinic to be lead counsel in this Court.
The time requested is necessary for Mr. Fisher and the other members of the
Clinic to fully familiarize themselves with the record, decisions below, and
the relevant case law across the country on this issue. In light of other
obligations of the Clinic, Mr. Fisher would not be able adequately to complete
these tasks by June 17, 2019.

3

RESPECTFULLY SUBMITTED this 29th day of May, 2019.

Jeffrey L. Fisher

By:

Megan A. Ring
COLORADO STATE PUBLIC
DEFENDER
Inga K. Nelson
DEPUTY PUBLIC DEFENDER
1300 Broadway, Suite 300
Denver, CO 80203

Jeffrey L. Fisher

Counsel of Record

Pamela S. Karlan
STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@stanford.edu

4

